                                                     AUDIT




 OFFICE OF INSPECTOR GENERAL’S
 INDEPENDENT REPORT
 ON THE BUREAU OF INDIAN AFFAIRS’
 FISCAL YEAR 2011 ACCOUNTING AND PERFORMANCE
 SUMMARY REVIEW REPORT FOR THE OFFICE OF NATIONAL
 DRUG CONTROL POLICY




Report No.: ZZ-IN-BIA-0002-2012                 February 2012
                                                                                          February 1, 2012
Memorandum

To:            Michael S. Black
               Director, Bureau of Indian Affairs

From:          Kimberly Elmore
               Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:       Office of Inspector General’s Independent Report on the Bureau of Indian
               Affairs’ Fiscal Year 2011 Accounting and Performance Summary Review
               Reports for the Office of National Drug Control Policy
               Report No. ZZ-IN-BIA-0002-2012

      The Office of Inspector General (OIG) reviewed the Bureau of Indian Affairs’ (BIA)
Accounting Report dated January 4, 2012, (Attachment 1) and its Performance Summary
Review Report dated December 29, 2011, (Attachment 2) prepared for the Office of National
Drug Control Policy (ONDCP). BIA management is responsible for these reports.

        The reports are presented in place of the Detailed Accounting Submission and
Performance Summary Report required by the ONDCP Circular: Drug Control Accounting dated
May 1, 2007. The Circular allows this alternative reporting method when prior year drug control
obligations are less than $50 million and full compliance with the Circular constitutes an
unreasonable burden. BIA management asserted that full compliance would be an unreasonable
burden and that the obligations reported constitute the statutorily required detailed accounting.

         We reviewed management’s assertion in accordance with the generally accepted
government auditing standards applicable to attestations that incorporate the attestation standards
established by the American Institute of Certified Public Accountants. A review is substantially
less in scope than an examination, which expresses an opinion on management’s assertions.
Accordingly, we do not express such an opinion.

        We limited our review to management’s assertion that full compliance with the
requirements of the Circular constituted an unreasonable burden. Our objective was not to
express, and we do not express, opinions or conclusions on whether the reports were fairly
stated.

        Based on our review, nothing came to our attention that causes us to question BIA
management’s assertion that full compliance with the requirements of the Circular would
constitute an unreasonable burden.




                        Office of Audits, Inspections, and Evaluations | Washington, DC
        Should you have any comments or questions regarding this report, please do not hesitate
to contact me at 202-208-5512.

        This report is intended solely for the information and use of the management of BIA,
ONDCP, and the U.S. Congress, and is not intended to be and should not be used by anyone
other than these specified parties. The distribution of our report, however, is not limited.

Attachments (2)




                                               2

                                                                                       Attachment 1

                        United States Department of the Interior
                                      BUREAU OF INDIAN AFFAIRS
                                             Washington, D.C. 20240


IN REPLY REFER TO:


MEMORANDUM


  To:                Kimberly Elmore
                     Assistant Inspector General for Audits, Inspections and Evaluations

  From:              Deputy Assistant Secretary - Indian Affairs      ~
  Subject:           Office oflnspector General ' s Independent Report on the Office ofNati
                     Control Policy (ONDCP) 2011 Accounting Report- Indian Affairs


  Attached for your review and response is the ONDCP 2011 Accounting Report for Indian

  Affairs. As required by the ONDCP Circular: Drug Control Accounting dated May 1, 2007, the

  report show that Indian Affairs prior-year drug control obligations are less than $50 million and

  is in full compliance with the requirements of the Circular and constitutes an unreasonable

  burden.



  If you have any questions, please contact the Office of Justice Services, David Johnson- Acting

  Deputy Associate Director, Drug Enforcement at 405 -247-1665 or 202-208-5787.



  Attachment
ONDCP 2011 Accounting Report - Indian Affairs

Resource Summary
                                                             I
 Prior Year Drug Control Obligations                         I                  FY 2011
 Function: Prevention
 J33          Special Initiatives                                               10,000,000
              Substance Abuse- Meth Initiative               I                  10,000,000
              Total ALL Functions                            l                  10,000,000
                   Total FTE (Direct ONLY)                                         35
*_,g Incl udes Admmtstranve Staff
~




Full compliance with this Circular constitutes an unreasonable reporting burden. Obligations
reported under this section constitute the statutorily required detailed accounting.




                                                                         Date
                                                                                      Attachment 2

United States Department of the Interior
Bureau of Indian Affairs- Office of Justice Services
                                                                                          2011

                 ONPCP Performance Summary Review

 ONDCP Budget                                        FY 2009          FY 2010            FY 2011
Function: Prevention
J33       Special Initiatives                       6,338,000        10,000,000         10,000,000
             Substance Abuse - Meth
             Initiatr:i ve                          6,338,000        10,000,000         10,000,000
Function: Education
J34       Indian Police Academy                      505,050          505,050            505,050
             TOTAL ALL Functions                    6,843,050        10,505,050         10,505,050
Drug Resource Summary of Personnel

                Total FTE (Direct Only)                 33               35                    *60
*FTE' s in previous Performance Summary Review' s did not include; School Resource Officers,
Intell igence Analysts, Victim/Witness Specialists or Administrative Staff.

Performance Introduction

In 2011 , the BIA continued to see an increase in drug activity on lands under its jurisdiction.
Information provided in this report reflects a portion of investigative activity on complex
conspiracy type investigations. BIA DDE agents continue to refine their investigative talents
leading to investigation of highly technical investigations such as court ordered Title III wire
intercepts, Organized Crime Drug Enforcement Task Forces (OCDETF) cases, and Racketeer
Influenced and Corrupt Organizations (RICO) cases. Annual marijuana eradication operations
contributed to an increase in overall drug seizures. BIA DDE agent' s investigative activity
continue to indicate the need for undercover/buy operations that produce federal indictments for
distribution. This repo includes performance measures, targets, and achievements for the latest
year for which data is available. Data was gathered and verified from the Office of Justice
Services (OJS) data base and the Division of Drug Enforcement (DDE) case log.

Performance Measure One: N umber of Patrol Officers Receiving Drug Training

In 2011 , to keep BIA-DDE Agents in a position to work drug investigations DDE did not
provide drug related training for patrol officers. To better address drug related training needs
this responsibility was transitioned to the Indian Police Academy to facilitate all drug related
training, some of which maybe supported by DDE Agents; depending on the agents availability.

This new focus has been implemented for FY 2012 and will produce a significant increase over
previous years of patrol officers who received drug related training.
Performance Measure Two: Percent increase in drug cases worked

The number of drug cases reported and tracked is gleaned from data provided on monthly drug
statistical reports provided by BIA and Tribal Police programs and from the BIA-DDE case log.
Data provided by BIA and Tribal Police programs is entered into the OJS drug database system.

The following information documents the cases worked by all Indian country law enforcement
programs (BIA-DDE, BIA and Tribal). These figures demonstrate an overall increase of
approximately 122.2% in drug cases worked in Indian country in FY 2011.

2008 Baseline        2009           2009            2010            2010           2011            2011
                     40%          Achieved         (+2%)          Achieved        (+2%)          Achieved
                   Proposed                       Proposed                       Proposed
     606              667            656             669             722            736            1605


The following information documents the cases worked as reported by the BIA-DDE. These
figures demonstrate an overall increase of approximately 20.1% in cases worked in FY 2011 .

2008 Baseline        2009          2009             2010            2010           2011            2011
                     40%          Achieved         (+3%)          Achieved        (+3%)          Achieved
                   Proposed                       Proposed                       Proposed
     90               126            267             272             421            434            506


The following information documents the cases worked as reported by BIA and Tribal police
departments. These figures demonstrate an overall increase of approximately 273.0% in cases
worked in FY 2011.

2008 Baseline        2009          2009             2010            2010           2011           2011
                     40%          Achieved         (+2%)          Achieved        (+2%)          Achieved
                   Proposed                       Proposed                       Proposed
     516              567            389             397             295            301            1099
*The preceding information was obtainedfrom the Lotus Notes drug database and DDE case logs. A copy of the
database information is attached.



The DDE continues to experience challenges gathering accurate data using systems developed by
the BIA IT division or its contractors. Information gathered for this report and the subsequent
verification process again highlighted the need for an automated data collection system. OJS­
DDE is in the final stages of developing a process to verify tribal drug data submission. This
process has been in the test phase and will be implemented during the FY2012 reporting period
to ensure accurate data submission.
Drug Enforcement Agents are responsible for managing drug investigations and implementing the
interdiction programs necessary to reduce the effects of drugs and drug-related crime in Indian
country. Funding increases facilitated the expansion of the BIA drug enforcement efforts allowing
additional FTE's to be strategically placed within or near other task force units in order to combat the
illegal drug epidemic in Indian country. The additional FTE's and the partnership formed as a result
of the task force environment have lead to a constant increase in arrests. FY 2011 arrests increased
by 64.3% over the 2010 figures.

Percent increase in number of drug related arrests

   2008                2009             2009            2010             2010          2011           2011
  Baseline             10%            Achieved          10%            Achieved        10%          Achieved
                     Proposed                         Proposed                       Proposed
      443               487              559             615              671           73 8          1103
*The preceding information was obtained from the Lotus Notes drug database. A copy ofthe database information is
attached.

Performance Measure T hree: I ncrease in the amount of drugs seized

FY 2011 efforts to encourage tribal law enforcement programs to submit drug related data has lead to
the increased use of the Drug Database within the Lotus Notes data collection system. The goal is to
achieve submissions from all tribal programs to ensure an accurate representation of drug seizures
along with the number of drug cases worked. We will also be able to construct a picture of drug
enforcement efforts within the tribal programs and where DDE can provide technical assistance to the
tribal law enforcement programs in combating illegal drugs in Indian country. Individuals from both
the BIA DDE and Law Enforcement Operations have been trained in the use of the system and the
importance of compiling accurate drug data for performance reporting. It will also provide managers
with data to better manage their drug enforcement programs.

The following information documents drug seizures accomplished by the combined efforts of BIA­
DDE, BIA and Tribal Police programs. These figures demonstrate an overall increase of
approximately 102.8% in drugs seized by Indian Country Law Enforcement Programs in FY 2011.
The substantial increase is contributed to the number of marijuana plants seized by all Indian country
programs as a result of eradication operations primarily in the Northwest Region of the United States.
In FY 2011, 47, 453 more marijuana plant were seized over the FY 2010 total.


          2011
    All Submissions
                                   2009               2010            2010              2011            2011
   Increase in Amount of
       Drugs Seized
                                  Achieved           (+2%)           Achieved          (+2%)          Achieved
                                                    Proposed                          Proposed
 I· } 2009. I 0, II achieved
 totals represented intwund.\"
                                 287, 099.00 lb   292,840.98lb      44, 759.67 lb    45,654.9/b      90, 772. 9/b
 Cocaine Powder                       178.62lb        182.19lb          106.53 lb       108.7 lb          7.7'1lb
 Cocaine Crack                          0.66lb          0.67 lb           8.28 lb          8.4lb          0.43 lb
 Heroin                                 0.48lb          0.48lb            0.08 lb       0.081lb           0.02lb
 MDMA (Ecstasy)                        0.03 lb           0.03 lb          0.15lb         0.153 lb         0.22lb
 Meth Crystal                         13 .75 lb         14.02lb          40.87lb          41.6lb          14.0 lb
 MethPowder                            4.55 lb           4.64lb           0.73 lb         0.74lb          0.14lb
 Processed Marijuana                  85.49lb           87.19lb          4,159lb       4,242.2lb       2,889.8lb
 Prescription Drugs Seized            13.10 lb          13.36lb          52.15 lb         53.2 lb         14.9lb
 Other drugs seized                    0.50 lb           0.51 lb          1.88 lb           1.9lb          2.7lb
 Marijuana (# Plants = lbs)           286,802           292,538           40,390          41 ,198       87,843 lb

The total number of marijuana plants seized in 2011 is 87,843. Research conducted by various
private Universities, Law Enforcement Training Programs and Law Enforcement Operations have
established the average usable amount of product derived from a mature marijuana plant to be
approximately one pound. Total marijuana seized (processed and eradicated) in Indian country in FY
2011 is 90,732.8 pounds.

The following information demonstrates drug seizures accomplished by the BIA-DDE. These
numbers were derived from the DDE case investigations logs and statistical reports and subtracted
from the previous charts depicting the overall Indian country seizures. These figures demonstrate an
overall increase of approximately 106.3% in drugs seized by the BIA-DDE.

         2011
     BIA-DDE Only
                                    2009              2010             2010            2011             2011
  Increase in Amount of
      Drugs Seized
                                  Achieved           (+2%)           Achieved         (+2%)           Achieved
                                                   Proposed                          Proposed
 /·} 20M. I 0.11 achieved
 totals represented in pounds:   149,713.47 lb    152,707.73 lb 43, 762. 88lb          44,638 lb      90,298. 6lb
 Cocaine Powder                      178.62lb         182.19lb      105.85 lb              108lb           7.2lb
 Cocaine Crack                         0.38lb           0.38 lb       8.13 lb              8.3lb          0.21 lb
 Heroin                                0.38 lb          0.38lb        0.08lb            0.081lb           0.01 lb
 MDMA (Ecstasy)                              0                0       0.12 lb           0.122lb           0.18 lb
 Meth Crystal                                0                0      40.60 lb             41.4lb          13.1 lb
 MethPowder                           18.34lb          18.70 lb       0.72lb              0.73 lb               0
 Processed Marijuana                  45.27lb          46.17lb 3,384.30 lb              3,452lb        2,874.6lb
 Prescription Drugs Seized             0.04 oz          0.04 oz       0.08lb            0.081lb            9.0 lb
 Other Drugs Seized                    0.64lb           0.65 lb             0                   0          0.3lb
 Marijuana(# Plants = lbs)            149,467          152,456        40,223           41 ,027lb        87,394lb

*The preceding information was obtained fr om the Lotus Notes drug database and DDE case logs. A copy of the
database information is attached. A copy of a DDE case log summary is attached.

BIA-DDE management reports the FY2011 marijuana eradication numbers doubled from 2010.
Marijuana gardens involving more than 9,000 plants included Yakama Indian Reservation,
Washington; Colville Indian Reservation, Washington; Caddo Indian Trust Land, Oklahoma.
Detection and eradication of a large marijuana garden cultivated on the Colville Reservation was
facilitated by the excellent working relationship the BIA DDE agent has established with the tribal
police department. An excellent collaboration was established with the BIA Office of Chief
Information Office (OCIO) during the 2011 grow season. A majority of marijuana eradication
operations are conducted in rugged, mountainous country. Generally, these areas lack any type of
infrastructure for radio communication. OCIO was provided with our dilemma in 2010 and made a
site visit on the Yakama Indian Reservation. For the 2011 grow season 0 10 arrived on the Yakama
Indian Reservation with a mobile repeater and transponder headsets for the portable radios. The
mobile repeater was driven to the area of each individual marijuana garden. This provided each agent
with direct radio contact among each other as they tactically approached these potentially dangerous
situations. The transponder headsets allow agents to have radio communication without the use of an
ear piece. It also allows agents to communicate among each other in a whisper.

Program

In FY2011 agents were involved in four Title III wire intercepts. In two of these cases BIA DDE
agents took on a major role and were the Affiant producing very detailed and technical affidavits.
Commonly the result of these types of investigations are more case openings, less drug seizures but
generate more Indian Country arrests creating a more sustained local impact on the availability of
drugs. A BIA DDE agent is co-case agent on a first ever RICO case within the state of Minnesota.
This case involves a large Metropolitan Native American street gang with ties relating to drug
distribution on multiple Indian reservations throughout the State of Minnesota.

The BIA continues to share resources with various agencies that gather intelligence-related
information, to achieve a solid intelligence network for Tribal, Federal, State and local law
enforcement to work collaboratively on information-sharing related to illegal drug activities or other
law violations. For example, an Intelligence Analyst is assigned to the El Paso Intelligence Center
(EPIC), southwest border intelligence workgroup to assist tribal and BIA law enforcement by
providing intelligence analytical assistance throughout the United States. A second Intelligence
Analyst has been added in McAlester, OK, assigned to a local DEA Task Force. This analyst has
served mostly BIA DDE agents with phone toll analysis, case mapping, pen registers, and defendant
and conspiracy flow charts and spread sheets. BIA is expanding this intelligence capacity with the
recruitment of an additional intelligence analysts positions which will be strategically located to
support the overall mission. The exchange of information can also have the enhanced effect of
increasing other agency' s depth of knowledge of Indian communities, and subsequent jurisdictional
concerns related to drug enforcement within Indian country.


The BIA Office of Justice Services Victim Witness Program, cons1stmg of 10 Victim Witness
  pecialist positions have demonstrated this program is in fact a vital part of necessary to fulfill our
obligation to victims of crime within Indian country. The Victim/Witness Specialists sponsor victims
and witnesses of i ues related to drugs and violent crimes. There are many success story already
coming out of this program supporting future additions of FTE' s to allow for increased services at
more locations. Working with the Department of Justice-Office of Victims of Crime (OVC), has
resulted in DOJ-OVC funding four victim/witness specialist positions for the BIA. Recently, OJS
learned OVC will provide funding for an additional Victim/Witness specialist to be located at the
Pine Ridge Indian Reservation. This funding is in the pipeline and will soon be available to allow the
recruitment process to being.

The Schools Resource Officer (SRO) program has received significant attention by having a uniform
police officer(s) on school campuses. Requests have increased to station SRO' s ·at other school
campuses throughout Indian country. With the current funding, 18 SRO positions are funded. The
School Resource Officer (SRO) program has proven to be an important part of the OJS drug initiative
allowing interaction of officers and students in the student's environment. SRO' s provide instruction
in drug awareness and gang resistance using nationally recognized and adopted curriculum to educate
students on the negative aspects of illegal drug use and gang activity. These SRO's play a key role in
providing a visual deterrent and identifying potential threats of school violence. A future goal of the
SRO program is to develop a mentoring component using the SRO platform allowing the SRO to be
available to focus on individual children with issues that place them in high risk situations.

MANAGEMENT ASSERTIONS

1. 	 Performance reporting systems are appropriate and applied ­
     The DDE continues to experience challenges gathering accurate data using systems developed by
     the BIA IT division or its contractors. Information gathered for this report and the subsequent
     verification process again highlighted the need for an automated data collection system.

2. 	 Explanations for not meeting performance targets are reasonable ­
     This target was not met due to refocusing DDE agents on drug investigations and providing drug
     related technical assistance to tribal law enforcement programs. As the DDE evolves into a more
     sophisticated division working more complex drug investigations the need to have the limited
     number of agents working investigations is apparent. In FY 2012 the Professional Standards
     Division/Indian Police Academy will facilitate all drug related training. The first of these
     trainings was completed in October 2011. It is anticipated a significant number of police officers
     will receive drug related training during the current performance period.

3. 	 Methodology to establish performance targets is reasonable and applied ­
     Due to the increase in agents, targets were projected for FY 2010 based upon what the program
     thought the increase of agents would be able to provide. Now that the program has 2 years of
     statistical data, projecting targets for the two measures on cases and seizures will be more
     realistic.

4. 	 Adequate performance measures exist for all significant drug control activities-
     The agency has 3 acceptable performance measures that adequately cover each of the decision
     units. Each measure considers the intended purpose of the NDCP activity.
